<html>
<title> - MEDIA FREEDOM IN CHINA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                         MEDIA FREEDOM IN CHINA
=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2002
                               __________

 Printed for the use of the Congressional-Executive Commission on China







         Available via the World Wide Web: http://www.cecc.gov



                        U.S. GOVERNMENT PRINTING OFFICE
81-228                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate                               House


MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Mann, James, senior writer in residence, Center for Strategic and 
  International Studies, Washington, DC..........................     2
He, Qinglian, journalist, Princeton University, Princeton, NJ; 
  accompanied by Dr. Jay Sailey, interpreter, Silver Spring, MD..     6
Menon, Kavita, Committee to Protect Journalists, New York, NY....     8

                                APPENDIX
                          Prepared Statements

Mann, James......................................................    34
Menon, Kavita....................................................    37











                         MEDIA FREEDOM IN CHINA

                              ----------                              


                         MONDAY, JUNE 24, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:33 
p.m., in room SD-215, Dirksen Senate Office Building, Ira Wolf 
(Staff Director of the Commission) presiding.
    Also present: John Foarde, Deputy Staff Director; Chris 
Billing, Director of Communications of the Commission; Matt 
Tuchow, Office of Representative Levin; Karin Finkler, Office 
of Representative Pitts; Amy Gadsden, U.S. Department of State; 
and Holly Vineyard, U.S. Department of Commerce.
    Mr. Wolf. Let us get started.
    I would like to welcome all of you on behalf of the 
Commission chairman, Senator Baucus, and the Commission co-
chairman, Congressman Bereuter, to this seventh staff 
roundtable on issues of human rights and the rule of law.
    Today we will be discussing restrictions on media freedom 
in China. There are several key enablers of human rights in 
China, and media freedom is one of those.
    We have three distinguished witnesses today--Jim Mann, from 
the Center for Strategic and International Studies and former 
Beijing Bureau Chief of the Los Angeles Times; He Qinglian, who 
is former editor of Shenzhen Legal Daily and author of 
``China's Pitfalls''; and Kavita Menon, Asia Program Director 
for the Committee to Protect Journalists.
    Each of you will have 10 minutes for an opening statement. 
We also welcome any formal statement you want to put in the 
record. Then the staff will ask some questions, and we hope 
there will be discussion among the three of you.
    As always, we make a full transcript of today's 
proceedings. Any written statements will be posted on our 
Website in the next day or two, and it will take about 5 weeks 
to post the full transcript of this roundtable.
    The roundtable itself will be an important element 
contributing to the annual report of the Commission which will 
be sent to the President and to the Congress in October.
    Before we start, I just want to mention that between now 
and the end of the summer we will have three more roundtables. 
On July 8, we will have a roundtable on village elections; on 
July 26, a roundtable on the criminal justice system in China; 
and on August 5, we will have an open forum where any 
individual or group is welcome to come and speak for 5 minutes 
on any issue related to human rights and rule of law in China.
    With that, I would like to start with Jim Mann. Please, go 
ahead.

STATEMENT OF JAMES MANN, SENIOR WRITER IN RESIDENCE, CENTER FOR 
      STRATEGIC AND INTERNATIONAL STUDIES, WASHINGTON, DC

    Mr. Mann. Good morning, Mr. Wolf. I come here today to 
offer some thoughts concerning freedom of press and freedom of 
political expression in China, or more precisely, concerning 
the lack of such freedom.
    I also come to tell you that I worry about the ways in 
which other interests, the foreign policy interests of the 
United States Government, the commercial interests of 
international media corporations, or an unduly narrow focus on 
the rule of law may unintentionally contribute to continuing 
restrictions on freedom of the press and on intellectual 
expression in China.
    At the outset, I should tell you that what I have to say 
reflects only some general and philosophical observations I 
have reached in thinking about China issues over the past 15 
years, first as a correspondent in Beijing in the 1980s, and 
then in covering American policy toward Asia and writing a 
history of Sino-American relations in the 1990s from 
Washington.
    The two other witnesses here today, He Qinglian and Kavita 
Menon, can give you a better sense of the climate in China 
right now than I can. I do talk from time to time to colleagues 
in Beijing, but what I have to say reflects my own perspective.
    For me, the most important fact is that, despite many 
changes in China over the past decades, the situation for press 
freedom in China today is what it has been. That freedom still 
does not exist.
    The human right of freedom of expression included in the 
International Covenant on Civil and Political Rights and the 
Universal Declaration of Human Rights is not a right that the 
1.3 billion people in China are allowed to enjoy.
    Congress assigned to your Commission the task of monitoring 
what it called the right to engage in free expression without 
fear of any prior restraints.
    In China, there is no such freedom. The restraints remain 
in place. To State the obvious, the Chinese Communist Party 
[CCP] maintains its monopoly on power, and that includes the 
power over the principal newspapers and television stations.
    The Party's tolerance for what can be published varies from 
season to season. During some periods of so-called 
liberalization more critical views can be aired, but once the 
criticisms get too pointed or too threatening they are 
suppressed.
    Among the most sensitive subjects are worker strikes, rural 
unrest, Falun Gong, allegations of corruption or nepotism by 
the country's leaders, direct criticism of the Chinese 
Communist Party, Chinese rule in Tibet and Xinjiang, and, 
finally, of course, the events of 1989, including the 
leadership upheavals, the Tiananmen crackdown, or what the 
Chinese often call simply 6/4.
    The record is replete with examples of disciplinary action 
against those who venture onto these or other sensitive 
subjects. Just to take a few examples from the last 3 years, 
Chinese authorities forced the publication Southern Weekend to 
stop the presses this March and remove a feature about a 
scandal in Project Hope, a charity that is under the control of 
the Communist Youth League.
    A magazine called Today's Celebrities closed last year 
after it carried an article that was considered unflattering to 
the memory of Deng Xiaoping.
    And since you have already held a hearing on the Internet, 
I presume you are aware of the case of Huang Qi, who was 
imprisoned in March 2000 after his Website aired information 
about the events of 1989.
    The underlying problem is deep-rooted and fundamental. The 
China news media are still viewed by the Party, not as 
independent sources of information or as a check or restraint 
upon power, but rather as instruments of political and social 
control.
    In January 2001, Jiang Zemin said that the news media in 
China have a duty ``to educate and propagate the spirit of the 
Party's Central Committee.''
    This view of the press as an arm of the regime is not 
merely abstract; it affects daily life, too. To take one recent 
and relatively benign example, earlier this month when China's 
soccer team lost to Costa Rica at the World Cup, Communist 
Party officials instructed the sports editors of major Chinese 
newspapers not to criticize the team and not to do anything 
that might arouse popular anger at the team and its defeat.
    Now, let me turn immediately to the question I know that at 
least some of you will ask, which is this: But, really, are 
things in China not really getting better these days?
    I anticipate this question simply because, for more than 
two decades, the notion that things are getting better in China 
has been repeatedly used to defuse and to minimize concern in 
the United States about restraints on freedom of expression and 
other forms of political repression there.
    I would argue, as I did in my book, that the notion that 
things are getting better is propelled by strong strategic and 
commercial interests, interests which may be valid in their own 
sphere, but which have little or nothing to do with political 
freedom of freedom of expression.
    In the late 1970s and in the 1980s, the United States 
viewed China as a tacit ally against the Soviet Union. In the 
1990s, the United States sought to invest in and trade with 
China, and to use commerce as a means of integrating China into 
the international community.
    I think, if we are talking specifically about freedom of 
the press, the idea that things are getting better represents a 
determined effort to put the best face on things and is really 
a distortion of the truth.
    Things have gotten much better in China in some ways, that 
is, if we are talking about private freedoms. You can wear what 
you want, you can own what you want, and in private, you can 
say what you want.
    As virtually every American visitor to China quickly finds 
out, the cab driver at the airport is free to tell you what he 
thinks, maybe even to tell you he believes Jiang Zemin is an 
airhead. Things have improved in one other way, too. The 
Chinese authorities cannot possibly keep information out of the 
country to the extent that they could before.
    The influx over the Internet, the airwaves, and travel 
across China's borders is far too great for China to be able to 
prevent its people from knowing that happens outside.
    When the people of Taiwan were able to hold a free election 
and force the Kuomintang, or Nationalist Party, to step down 
from power in March 2000, the people of China were able to find 
out about these events. That is a significant change.
    But, still, let us keep it in perspective. It is a change 
that has taken place in spite of, not because of, the efforts 
of the Chinese leadership, which continues to block Websites, 
jam radio frequencies, and monitor access to the Internet.
    The larger problem is that these changes have no bearing at 
all on freedom of the press or freedom of expression, if by 
those words we mean what we usually mean, which is public and 
political expression, the freedom to criticize the government 
openly, to express in print or over the airwaves those views 
which dissent from what the country's leaders are saying. This 
right still does not exist in China, and all the talk about 
changes should not deflect us away from that fact.
    Now, let me turn to the concerns that I mentioned at the 
beginning of my statement, ones that I hope you will keep in 
mind as you do your work.
    First, about an over-emphasis on the rule of law. The rule 
of law is an extremely worthwhile objective in China. However, 
over the past few years I have heard some Americans speak as 
though it were the only or the ultimate objective for political 
reforms in China, or as thought it were the sole means of 
accomplishing political change. I strongly disagree.
    The subject in your roundtable today is freedom of the 
press and freedom of expression. Those political freedoms are 
at least as important as the rule of law, indeed, in my own 
personal view, more so.
    Frankly, it is possible to imagine a government that 
incorporates the formalities of the rule of law while doing 
little or nothing for freedom of expression. In fact, even 
worse, it is possible to envision a government that uses the 
rule of law to inhibit freedom of expression.
    To take one concrete example, Singapore offers the rule of 
law in such a way that international companies have perfectly 
decent access to its court system for commercial disputes, and 
at the same time the same government uses its laws to punish, 
or indeed bankrupt, those political opponents who would 
challenge the existing order or the ruling party.
    I hope you will take care not to emphasize the rule of law 
to the exclusion of freedom of expression. I hope you will not 
inadvertently encourage China to attempt to follow the 
political path of Singapore.
    I hope that when you pursue the valuable objective of the 
rule of law in China you will make clear that it is not enough 
to provide courts, lawyers, and judges exclusively for settling 
or arbitrating commercial disputes.
    If that were to be the sole result, then I think, 
unfortunately, history may judge that the pursuit of the rule 
of law in China will have turned out to serve the interests of 
American business and legal communities, but not the goal of 
advancing the rights and freedom of expression of ordinary 
people in China.
    Second, concerning the United States Government, I think 
United States officials need to be careful about 
unintentionally encouraging restrictions on freedom of 
expression in China.
    What I am referring to, is the tricky question of United 
States policy toward popular expressions of anti-Americanism in 
China. On a number of occasions over the past few years there 
have been outbursts of anti-American sentiment.
    We have all seen this, most notably, of course, after the 
American missile struck the Chinese Embassy in Belgrade in 
1999, and after a Chinese pilot shot down the American EP-3 
reconnaissance plane last year.
    I think the United States Government is certainly right to 
complain when there is evidence that the Chinese regime is 
encouraging, or even organizing, such anti-American outbursts, 
or when the Party newspapers fueled by the regime fuel these 
sentiments. There were such indications after the Belgrade 
incident.
    Otherwise, however, I believe the United States should not 
seek suppression of populace Chinese views, including those 
that are wrong-headed or crazy.
    After the EP-3 incident, I heard some Americans express 
satisfaction, or even gratitude, that the Chinese leadership 
had reigned in or stopped some of these outbursts.
    To me, such attitudes are short-sighted. It harms the cause 
of freedom of expression in China and it puts the United States 
Government in the position of asking the Chinese regime to 
restrict public opinion.
    Needless to say, China is full of bright, talented people 
and if they are permitted the freedom to criticize the United 
States of America, some of them may ask why they are not 
permitted the same freedom to criticize their own government 
and leaders.
    Furthermore, these outbursts of anti-Americanism, so long 
as they are genuine, serve the function of allowing us to see 
what ordinary Chinese people think.
    That, at least, is a step forward from having to listen to 
the Chinese Government claim for itself the right to say that 
this or that action hurts the feelings of the Chinese people, 
an assertion that Chinese leaders make without ever holding the 
sort of open elections or other processes that would determine 
the feelings of the Chinese people, and without ever permitting 
the question of whether the Chinese Government's own actions 
may hurt the feelings of the Chinese people.
    I go on in my written statement to argue that the interests 
of international media corporations also sometimes hurt the 
cause of freedom of expression, and maybe I can elaborate on 
that later on.
    [The prepared statement of Mr. Mann appears in the 
appendix.]
    Mr. Wolf. We will have plenty of opportunity to talk 
further.
    Ms. He, we are very pleased that you were able to come 
today. We will give you 20 minutes since we will use 
consecutive interpretation. So, please, we welcome you and are 
looking forward to hearing from you.

  STATEMENT OF HE QINGLIAN, JOURNALIST, PRINCETON UNIVERSITY, 
  PRINCETON, NJ; ACCOMPANIED BY DR. JAY SAILEY, INTERPRETER, 
                       SILVER SPRING, MD

    Ms. He. I am very happy to come here today to be able to 
talk about control of the media in China. The control of the 
media since 1989 has been stronger than that in the previous 
period, but there has been a major difference in the way in 
which the control has been exercised.
    I would like to say in a few words what means have been 
employed to control the media. There has been a systematic 
control of the media which has existed since the time of Mao 
Zedong.
    In the time of Mao, there was only one Ministry of 
Propaganda, which reached from the central government all the 
way to the lower political divisions of the country. But in the 
1980s, a Ministry of Information was established and controlled 
by the government.
    One of the functions of the group was to select and pick 
out various articles and items of news from all fields. Certain 
categories of materials were especially up for scrutiny, such 
as anything to do with the World Trade Organization [WTO] or 
questions having to do with human rights.
    For example, the United States attack on the Chinese 
Embassy in Belgrade was another item. Also, the EP-3 crisis of 
last year. In these cases, these items of news, care was taken 
to make clear what sort of things should be said about them, 
what sort of things should not be said.
    There were specific policies not only about the content, 
but the headlines and where in the newspaper the item of news 
should be placed that would make a much more similar recounting 
of the news in all the different Chinese news media.
    Also, there were on-the-spot telephone calls made to the 
various media sources. For example, if someone in the 
leadership was opposed to a particular item of news appearing 
in the newspaper, this fact would be made known to the media 
people. Also, 2 years ago, intellectuals were forbidden to 
publish individual articles or books. This policy was enforced 
through telephone calls to the various media outlets.
    It was not allowed to make a written record of these phone 
conversations, nor was it allowed to have them recorded, nor 
was it permitted to know who in the leadership was opposed to 
the propagation of these items.
    The fear was that such information might be passed on to 
international human rights groups and cause embarrassment. When 
I was working for the Shenzhen Legal Daily, I often received 
such telephone calls and saw such material across my desk.
    Another way in which this was brought about was through an 
actual censorship process. These people were chosen from the 
most reliable elements, in the eyes of the government in the 
media.
    Each article in each major newspaper had to be read on a 
daily basis, and anything that displeased these people had to 
be clarified.
    A report had to be made of this and sent to the Ministry of 
Propaganda. If the censors felt that a particular item of news 
was especially unpleasant, then they would notify the newspaper 
and censure them.
    Then there was a system by the Ministry of Propaganda for a 
monthly criticism of the media. Every month, a report was 
prepared and sent to all the different media outlets in the 
country and it was reported that such-and-such a newspaper made 
such-and-such a kind of error in such-and-such item of news and 
what the higher-ranking government officials did to resolve 
this problem.
    When the people from the other media outlets saw this, they 
were supposed to realize what the position of the government 
was vis-a-vis the media. There was a very good excuse for all 
this. It was described as ``harming the good relationship 
between the Party and the government.'' We should not, 
therefore, broadcast things that make society look bad.
    In a free country, the media is expected to criticize the 
government. In China, it is exactly the opposite: it is the 
government that criticizes the media.
    This is part of the system of being a party in power, the 
way in which the Party has done things. The way in which the 
society is being governed is more and more secretive. Secret 
police are sent to follow media people about to see what they 
do.
    From 1998 onward, I was under surveillance from the 
Ministry of Public Security and from January 2000 I realized, 
in the apartment next to mine, there were 12 people who kept 
constant surveillance over me. Of course, my telephone wire was 
tapped. My assistants were also investigated. They entered my 
files on my computer.
    But, even more significant, is a policy which was set out 
by Jiang Zemin in 1999. This was an effort to use non-political 
means to deal with political problems.
    For example, he did not like our media's criticism of 
corruption within the government, but he did not want to use 
that as the charge against us, that is, explicitly, that we 
were criticizing the government's corruption. So, at least 
there should be the use of some other kind of excuse to 
criticize us.
    For example, at that time I was in charge of several 
different divisions within the paper. As you know, many Chinese 
media people like to receive bribes. They said, ``You write 
this item of news because you have been bribed to do so.'' So, 
instead of criticizing us for reporting the news, we are 
criticized for taking bribes. But my work unit was unable to 
find any corroborative evidence that I ever took bribes. Other 
intellectuals were criticized for releasing public secrets, and 
harming national security, and plotting to overthrow the 
government. Also, a kind of sexual blackmail. By using these 
kinds of means, it was possible to destroy a person's good 
reputation in China.
    Gao Qinrong from Shanxi Province reported an item of 
corruption in his province. He was brought on a charge of 
corruption and sentenced to 13 years in jail. Shi Binhai in 
Beijing reported Chinese economic news to foreign reporters, 
but he was charged with economic crimes for doing so. Peng Ming 
was criticized for engaging with prostitutes and sexually 
blackmailed. So, Chinese intellectuals more and more are saying 
that these low, mean ways of dealing with people are what the 
government favors over direct charges.
    Many people in the West think that, with the advent of the 
Internet and the accessibility of things, the media situation 
will improve. Actually, the real situation is not like this at 
all.
    For example, our access to the Internet is all controlled 
centrally. The government has invested a vast sum in 
controlling access to the Internet. If someone were to issue 
some sort of theory or opinion criticizing the government and 
put it on the Internet, afterward the government was able to 
employ some sort of technique to discover who the person was 
who put it on there.
    For example, there was a young man in Sichuan who put some 
material on the Internet which was supportive of me at night in 
Sichuan saying that the Chinese Government should not restrict 
scholars like myself from writing articles and disseminating 
them. He was arrested and sentenced to 5 years in jail.
    His older brother came to Shenzhen to discuss this with me, 
but there was nothing I could do about it. The company which 
had printed my book was the Today's China Book Company. They 
published my well-known works. In this case, the company was 
put out of business in the year 2000.
    Another company which put out one of my books, the editor 
was fired. He was forbidden from ever becoming involved in 
media affairs again. More than a dozen different publishing 
houses were closed as a result of publishing these sensitive 
books.
    There is a government project called the ``Golden Shield.'' 
The Golden Shield is a special kind of development of high-tech 
in order to control access to the Internet. The purpose of this 
project is to control all access into and out of the Internet. 
This system is proposed to be completed by the year 2008. I 
think this will make China the greatest police State in the 
world.
    Thank you.
    Mr. Wolf. Thank you very much. I would also like to thank 
Dr. Sailey for helping out today. We appreciate it very much.
    The final witness is Kavita Menon from the Committee to 
Protect Journalists, a group that has done critically important 
work throughout the world. We are pleased to have you here 
today also, so please go ahead.

 STATEMENT OF KAVITA MENON, COMMITTEE TO PROTECT JOURNALISTS, 
                          NEW YORK, NY

    Ms. Menon. Thank you. Thank you for inviting the Committee 
to Protect Journalists [CPJ] to participate in this roundtable 
discussion about media freedom in China.
    CPJ has been monitoring press freedom conditions in China 
and around the world for more than 20 years. The organization 
was founded in 1981 by a group of American journalists who 
believed that the strength and influence of the international 
media could be used to support journalists who were targeted 
because of their work.
    CPJ's board of directors, who remain actively involved in 
our work, include such leading American journalists as Tom 
Brokaw of NBC News, Clarence Page of the Chicago Tribune, and 
Terry Anderson, who was held hostage for nearly 7 years in 
Lebanon while working as the chief Middle East correspondent 
for the Associated Press.
    CPJ works primarily by publicizing attacks against the 
press and petitioning governments to stop press freedom abuses. 
Without a free press, other human rights remain out of reach. A 
strong press freedom environment is essential to building a 
vibrant civil society that helps ensure healthy social, 
political, and economic development.
    I am going to be echoing many of the points you have 
already heard from my colleagues on the panel, and I apologize 
for any repetition. We all seem to agree on the central theme, 
that the Chinese Government does not tolerate press freedom.
    All media are censored, and journalists who manage to 
express critical views risk harassment, dismissal from their 
jobs, and even imprisonment, this, despite the fact that 
Article 35 of the Chinese Constitution enshrines the right to 
freedom of speech and of the press. China has also signed, 
though not ratified, the International Covenant on Civil and 
Political Rights which guarantees freedom of expression.
    The jailing of journalists is among the most effective 
tactics employed by repressive regimes to control the media, 
and China does this more than any other country in the world. 
According to CPJ's research, China currently holds 35 
journalists in prison. A journalist, according to CPJ's 
definition, is anyone who publishes news or opinion.
    These arrests worked to silence critical voices and also 
send a warning signal to all journalists who dared to express a 
dissenting view or expose an uncomfortable truth.
    Despite statements by senior Communist Party leaders--
including Premier Zhu Rongji--calling on the press to expose 
official corruption, Chinese journalists have told CPJ that 
such reporting is extremely dangerous. Journalists are not 
allowed to criticize senior leaders, and reporting about well-
connected officials can cost you your job, and possibly your 
freedom. There are no protections for journalists who do 
independent investigative reporting.
    In November 2001, CPJ honored imprisoned journalist Jiang 
Weiping with an International Press Freedom Award. Mr. Jiang 
was arrested on December 5, 2000 after publishing a number of 
articles for the Hong Kong magazine Frontline that revealed 
corruption scandals in northeastern China. He was sentenced to 
8 years in prison on charges including revealing State secrets 
and endangering national security.
    The case of Jiang Weiping has recently become even more 
complicated with the arrest, in March, of his wife, Li Yanling. 
CPJ fears that Li Yanling was detained because her husband's 
case had received significant press attention.
    Li Yanling's arrest and Jiang Weiping's prolonged detention 
underscore the fact that international media attention alone 
cannot prod the Chinese Government toward reform. Such cases 
must also be championed by political actors, including the 
United States.
    The United States has clear commercial and political 
interests in promoting greater transparency and the rule of law 
in China. Local media there have increasingly played a critical 
role in exposing corruption and other abuses of power and 
deserve the support of the international community for doing 
so.
    If Members of the United States Congress speak out when 
Chinese journalists are jailed, it may help to secure their 
release. It is important to note that the arrests of 
journalists not only violate international law, but also are 
typically carried out in violation of Chinese laws.
    Trials are often secret, and family members, colleagues, 
and the press are not allowed to attend. Detainees are often 
held for time periods exceeding legal limits specified in 
China's criminal procedure law.
    Prison visits by family members, which are permitted under 
the prison law, are frequently denied to imprisoned 
journalists, as is medical treatment.
    The criminal procedure law also stipulates that a court 
must pronounce judgment within 6 weeks after accepting a case, 
however, five journalists who were tried in 2001 are still 
awaiting sentencing.
    Of the eight new arrests CPJ documented last year, all were 
related to online publishing. That means that the new 
possibilities for free expression that accompanied the advent 
of the Internet come with the old risks of prosecution.
    There are an estimated 57 million people now online in 
China. With increasing access to the Internet, it has, of 
course, become much easier to publish independent views and to 
have such articles circulated widely.
    Internet chat rooms are lively forums for political debate, 
and the sheer speed with which news can travel across the 
country and around the world has posed a huge challenge for the 
Chinese Communist Party, which remains determined to control 
information.
    In some cases, the publication of news online has put 
pressure on traditional media and the government to acknowledge 
major stories. In July 2001, local officials in Nandan, Guangxi 
Province, tried to cover up an incident in which a local mine 
was flooded and at least 80 workers were killed.
    Although hired thugs threatened and harassed journalists 
who came to investigate, reporters managed to post exposes on 
various online news sites. Nandan residents soon thronged to 
local Internet cafes to read online reports of the accident, 
and journalists from around the country came to cover the 
story.
    While government officials had initially said the accounts 
of the disaster were fabricated, the central government was 
eventually forced to respond to the news reports and send a 
team to investigate the situation.
    This Spring when massive labor protests erupted in several 
major cities, activists managed to defy a central news blackout 
on the demonstrations by transmitting news of their activities 
via the Internet.
    However, precisely because the Internet has the potential 
to break the Communist Party's monopoly over domestic news, it 
is seen as a special threat. The Chinese Government has 
introduced a number of regulations designed to restrict online 
content and to expand official monitoring of the Web.
    These regulations include requiring Website operators and 
Internet service providers to keep detailed records of content 
and user identities and to turn these records over to 
authorities on demand.
    American companies have been eagerly eyeing the vast 
Chinese market, but it is not clear how they could comply with 
such rules violating basic rights to privacy and free 
expression.
    Traditional media in China are, in many ways, more diverse 
and active today than at any time in the history of the 
People's Republic. This is, in part, because publications are 
more dependent on advertising revenue than on government 
subsidies, and so must be more responsive to the public.
    Still, aggressive local reporting is not always welcome, 
and CPJ has noticed a growing incidence of violent attacks 
against journalists. In 2001, CPJ documented its first case of 
a reporter killed for his work in China. The journalist, Feng 
Zhaoxia, was an investigative reporter for a provincial 
newspaper in Xi'an. He was found in a ditch outside the city 
with his throat cut. CPJ believes he was killed for reporting 
on local officials' alliances with criminal gangs.
    However, the most common threat to local journalists 
remains bureaucratic interference. All local media are under 
the control of the Chinese Communist Party. In a back-handed 
compliment to the growing independence and professionalism 
among elements of the country's press, the Chinese Government 
has recently undertaken one of the most severe media crackdowns 
in recent years, shuttering publications, firing editors and 
reporters seen as too independent, and issuing new directives 
listing forbidden topics.
    One of the victims of this crackdown is Southern Weekend, a 
newspaper published in southern Guangdong Province. One of 
China's most progressive and adventurous newspapers, Southern 
Weekend has long pushed the boundaries of media control in 
China by publishing in-depth reports on social problems such as 
AIDS, crime, and the trafficking of women.
    Last Spring, the paper published an article about a 
criminal gang that killed 28 people in a spree of murder and 
theft. The author included interviews with gang members and 
their families, as well as a broad analysis of problems such as 
poverty and other forms of inequality that may have led to a 
life of crime.
    After the article came out, the Hunan provincial government 
notified central authorities that Southern Weekend had 
published a negative portrait of China's socialist struggle.
    Soon, the deputy editor-in-chief, front page editor, and 
another senior editor were demoted. The news section chief and 
reporter were fired and banned from ever working in journalism 
again.
    Pressure on local media has been particularly intense in 
the run-up to the 16th Party Congress scheduled for this Fall, 
when delegates will choose successors to President Jiang Zemin 
and Premier Zhu Rongji.
    CPJ is also worried about the erosion of press freedom in 
Hong Kong during its fifth year under Chinese rule. Local 
journalists and press freedom groups have said that reporters 
and editors increasingly practice self-censorship and avoid 
topics that could anger Beijing.
    CPJ is also monitoring proposed security laws against 
subversion and sedition in Hong Kong which could have severe 
consequences for freedom of expression in the territory.
    In conclusion, China is too large and unwieldy for perfect 
control to be possible, but the Communist Party remains 
unwilling to cede the battle. Hardliners believe that to 
relinquish control over information would be to relinquish 
control over power altogether.
    Despite its heavy-handed tactics, the Chinese Government 
has largely succeeded in evading international censure of its 
media policies. If reform is to come, it will be due largely to 
the persistence and professionalism of journalists such as 
Jiang Weiping, the editors of Southern Weekend, and my co-
panelist, He Qinglian. They need and fully deserve the world's 
support and attention.
    [The prepared statement of Ms. Menon appears in the 
appendix.]
    Mr. Wolf. Thank you very much.
    Let me start out with the first question. Are there 
elements one can identify in Chinese history, culture, and 
society that predate the founding of the PRC that lead to 
restrictions on media freedom, on freedom of expression, or is 
the point in time of the founding of the PRC a threshold? Is 
that the critical turning point, or are there elements in 
history contributing to the government practices with the 
media.
    I would be interested in all of you answering, maybe 
starting out with Jim.
    Mr. Mann. Well, for the full breadth of Chinese history, I 
am going to defer to He Qinglian. I will point out that under 
the Kuomintang the Nationalists were fabulously skilled at 
manipulating and trying to control the press. So, it would be 
going overboard to talk about a free and open press in China in 
the 1930s and 1940s.
    Having said that, the controls were vastly greater after 
1949. There is a specific history within the Chinese Communist 
Party, specifically Mao Zedong at Yenan, of asserting and 
laying out the doctrine for control of all intellectual 
endeavors, including the press.
    Mr. Wolf. Ms. He.
    Ms. He. Yes. This tradition existed during the time of the 
Kuomintang but it was never so fully implemented and exercised 
as it was under the Communists. For example, one could write 
critical things, such as the writer Lu Xan was published in the 
Nationalist period. But in the Communist period, to have 
published materials directly critical to the government would 
lead to execution or being jailed. This happened very 
frequently.
    There was a short period of relenting in the 1980s under 
Deng Xiaoping, but direct criticism of Deng Xiaoping personally 
was not permitted. The famous Wei Jingsheng, because he 
criticized Deng Xiaoping, was one of the first people charged 
with having done damage to the national security.
    I talked about an editorial board. This was the case in 
Mao's period and Deng's period. But these were people who were 
criticized for political crimes in that period.
    There are a number of these people: Fang Lizhi, Liu Binyan, 
Wang Ruowang. These three people were very well-known. They 
were criticized as not going along with the Party in the 
political sphere.
    After the events of June 4, 1989, in order to preserve an 
element of national importance, the government expressed a kind 
of sympathy, at least an appearance, toward those who wanted to 
express their lack of sympathy with the government.
    The policy then was implement by Jiang Zemin to use non-
political crimes to be applied to journalists who were 
politically critical. Of all the people who were just mentioned 
who were imprisoned and so forth, none of them were 
specifically charged with political crimes.
    They were all charged with other sorts of offenses.
    Mr. Wolf. Did you want to add anything, Ms. Menon?
    Ms. Menon. No. My expertise is really not on China's 
historical attitude toward the press. I will say briefly that I 
think that the Communist Party's control of the media is more 
extensive than any other regime's in the world. I do not know 
how much of that is traditional.
    People always talk about an aversion on the part of some 
Asian societies to public criticism. I do think cultures 
change, people change, and there are many Chinese journalists 
who think that the role--there is even debate, I think, in the 
Communist Party itself about, what is the role of the media?
    I think it is very interesting to hear and to see even in 
previous eras of comparative liberalization, when even very 
senior officials talk about the media as the ``voice of the 
people.'' A lot of journalists make this point, that the role 
of the press is not to be the voice of the Party, but to be the 
voice of the people, and what does that mean?
    Mr. Wolf. All right. Thank you.
    Next is John Foarde, who is the Deputy Staff Director of 
the Commission.
    Mr. Foarde. First of all, let me thank all three panelists 
for joining us this afternoon. It has really been a helpful and 
rich conversation so far. Thanks, also, to Jay Sailey for 
giving us a hand today.
    Jim Mann, let me ask you this. You mentioned in your 
testimony our statute and what it says about prior restraint. 
Can you give us a better sense of what the Chinese Government 
does to restrain free expression before the fact?
    We heard quite a lot from you and from the other panelists 
about what happens after you publish or say something that is 
deemed unacceptable. But what are the mechanisms and who 
enforces sort of prior restraint on free expression?
    Mr. Mann. I would refer you to what He Qinglian just said, 
that there is censorship. The articles are submitted 
beforehand. Second, by my interpretation of prior restraint, 
which comes less from China than from 8 years covering the 
Supreme Court, closing down a magazine so that it does not 
publish is a prior restraint, is it not?
    So the lesser publications--not the People's Daily but 
lesser publications--are closed down when they get too 
adventurous. That is, in my mind, a prior restraint.
    Mr. Foarde. Let me follow up with another comment that you 
made that I thought was really interesting about the danger of 
putting too much stress on the rule of law, or perhaps thinking 
that making the changes to the legal regime first would end up 
helping freedom of expression sort of automatically. I hope I 
am not misrepresenting what you said.
    How can we get at doing something to promote press freedom 
separately from helping to liberalize the legal regime?
    Mr. Mann. Two things. First, it is important to have a 
definition of the rule of law which is not focused specifically 
on commercial disputes or arbitration. That is, if the rule of 
law is to include guarantees of the right to freedom of 
expression, then I have no complaint with the rule of law.
    But without it, if it is focused specifically on getting 
American companies a fair deal in the Chinese courts, I think 
that is fine for American companies but I think that is 
insufficient. That is first of all.
    If your general question is, what can we do, my answer 
would be that the first value is simply in calling attention to 
the truth and not being sort of diverted by the smaller things, 
less important things in China that are changing and keeping 
the focus on the very important ways in which China is not 
changing. The truth-telling function is extremely important. It 
was important, for example, in the Helsinki process, and it is 
important here.
    Mr. Foarde. I have got a few minutes left, so let me pose a 
question to He Qinglian. Oh. Please, go ahead.
    Ms. He. Let me mention, we were talking about, during the 
Kuomintang period, the Nationalist government. There were a 
number of scholars and others who criticized the Nationalist 
government. These people, when the Communists took over, many 
of them were thrown into prison simply because at some point in 
their lives they may have said something critical of the 
Communists. I have studied this time period and I was very 
surprised to see how many of these people were dealt with this 
way.
    The Chinese Government uses differing tactics based on the 
needs of a particular situation. For example, the Constitution 
says there is freedom of religious belief, but it does not 
really give people the freedom of religious belief. The 
Constitution gives people freedom of speech, but in fact they 
do not have freedom of speech.
    Mr. Foarde. That is very useful. Thank you.
    Mr. Wolf. All right. Next is Chris Billing, who is the 
Director of Communications for the Commission and himself a 
long-time journalist in Beijing.
    Mr. Billing. Thank you.
    Jim, you are going to suggest that American media companies 
who want a piece of the action in China might be complicit in 
helping the government there control the free flow of 
information. I was wondering if you could expound on that a 
little bit.
    Mr. Mann. Sure.
    Mr. Billing. And others of you, too, if you have comments.
    Mr. Mann. I am going to just read a couple paragraphs of 
what I wrote, because I did try and think this out. While large 
media corporations, of course, often engage in political 
expression, they have many other interests, including financial 
ones.
    As a result, these large media companies may not always 
further the cause of freedom of expression for ordinary 
individuals. So, in the case of China, we can see large media 
companies lining up to enter the China market. These include 
huge international concerns like Rupert Murdoch's News 
Corporation, AOL Time-Warner, and Disney.
    And there are also smaller Asian companies. For example, 
the leading newspaper corporations of Taiwan have been quietly 
hoping and laying plans for years now to start publishing 
copies of their newspapers in China.
    In business terms, these companies are doing what other 
companies are doing. Really, it is no different and they have 
the same right as anyone else to expand their market, or 
increase their revenues.
    But these companies not only should enjoy the right to 
publish or broadcast, but they also have a special obligation 
to help foster freedom of expression and do nothing that harms 
freedom of expression.
    So, what I argued in my statement is that newspapers and 
broadcast companies should not agree to censorship or to other 
restrictions on content as a condition for entering the China 
market.
    The computer and other high-tech companies should not 
assist the Chinese Government in blocking the Internet, and 
that American entertainment companies and movie studies should 
not let Chinese authorities use the lure of theme parks or 
distribution outlets to determine what movies get made, or what 
is made in these movies.
    Finally, the executives of media companies need to be 
something other than just flatterers for the regime when it is 
restricting freedom of expression. What I am saying is, these 
companies need to think about their larger missions and not 
just the balance sheets.
    I think that is an important part of the media scene in 
China, that you do have these companies rushing to come in and 
there is a serious issue of what restrictions they accept for 
themselves. They can play a role in helping freedom of 
expression or, to the contrary, could harm the cause.
    Ms. He. I would like to add something to that. The control 
or restraint on the foreign media in China takes the situation 
of controlling access to information of the media rather than 
controlling the media itself, so the state carefully 
scrutinizes any kind of foreign correspondent or reporter who 
goes out to seek news in China.
    So anyone who furnishes to these correspondents information 
that would be embarrassing to the Chinese Government would 
certainly be arrested. These take the form of charges such as 
endangering national security or harming the national interest. 
Therefore, when Chinese people meet with foreign journalists, 
either they will not dare to say anything or they will say 
something that is not true.
    Ms. Menon. I just wanted to add a brief comment to Jim 
Mann's point about the responsibility of media companies in 
China.
    Around the time that AOL Time-Warner announced its joint 
venture with Chinese computer maker Legend, it was not clear 
exactly what kind of services that AOL Time-Warner would be 
providing, but doing some kind of thing on the Internet. The 
Washington Post obtained an internal memo that was circulating 
at AOL, kind of posing the different kinds of questions that 
the company might face.
    The memo really posed that question in very stark terms, I 
think, and said, ``What would AOL do if the Chinese Government 
demanded names, e-mails, or other records relating to political 
dissidents?'' And the company did not have a good answer for 
that question, and I think that is the question that all 
companies doing business in China need to grapple with.
    Mr. Wolf. Thank you.
    Next is Amy Gadsden who represents one of our State 
Department Commissioners, Assistant Secretary Lorne Craner, 
from the Bureau of Democracy, Human Rights, and Labor.
    Ms. Gadsden. Thank you to all of the panelists. I have 
found this very interesting.
    I want to switch a little bit and ask you to talk about the 
consumption of news as opposed to the production of news. How 
are the Chinese people getting their news in this environment 
where the media is controlled? In particular, is there an 
increase, in your opinion, in the Chinese turning to other 
sources of information on the net and elsewhere?
    Mr. Mann. I think I should defer to He Qinglian on that.
    Ms. He. I think the source of news for the great majority 
of the Chinese people is from government-run sources, such as 
the print media or TV. People's understanding of what happens 
abroad comes from government-controlled channels.
    After the events of September 11, people had a very 
confused notion of what happened. This was a result of 
brainwashing conducted by the Chinese media. Only a very small 
proportion of people were able to get news from the Internet.
    But now, with the increasing control over the Internet, the 
access to this sort of information is even more restrained. The 
Daqing matter which was exposed in the western media received 
no attention in the Chinese Government press.
    Ms. Gadsden. Thank you.
    Mr. Wolf. Next is Holly Vineyard, who works for our 
Commissioner Grant Aldonas, who is Under Secretary of Commerce.
    Ms. Vineyard. Thank you for joining us today.
    Ms. He, you mentioned in your testimony that news in China 
on the WTO gets special scrutiny. I am wondering, what sort of 
news is not getting reported? Is there any sort of angle that 
is added that it might be helpful for us to be aware of?
    Ms. He. One of these subjects is criticism of individual 
Chinese leaders. Also, matters relating to foreign affairs that 
the government does not wish foreigners to know about, for 
example, negotiations on China's border with Russia.
    When the results of this treaty signed by Jiang Zemin were 
made public, a lot of items were left out and the Chinese 
people were totally unaware of this, also, the facts about the 
affair of September 11, and some of the differing accounts of 
matters relating to United States-China affairs, and also 
problems which may be confronting China as a result of its 
joining the WTO.
    These are things that the Chinese Government does not wish 
to see placed on the Internet. Also, some of the labor actions 
and some of the agricultural unrest in China, and any kind of 
popular criticism or dissatisfaction. All of these things fall 
within the scope of things that the government wishes to limit 
or reduce access to.
    In the past, I received a lot of secret documents relating 
to these matters and directives from the government. Every 
couple of months there were a dozen or more different kinds of 
materials that were not to be discussed at all.
    One is not permitted to criticize the national economic 
policy or to discuss matters relating to Tibet, Taiwan, or 
Xinjiang, or about the cultural revolution. There were many 
such regulations.
    Ms. Vineyard. Thank you.
    Have you seen any censorship, any of you, about what has 
been going on with China's WTO implementation?
    Ms. He. Yes. One of the things that was seized from my 
household was an article relating to the implementation of the 
World Trade Organization commitments, a thick document of 48 
questions relating to things that had to do with the World 
Trade Organization. This was a very detailed source of 
information.
    The government had prepared the document saying that if any 
of these 48 different questions should arise, this is how they 
should be answered.
    Mr. Mann. If I could further clarify, this fits precisely 
in this category that I was talking about of permitting views 
or the short-sightedness of suppressing views that the United 
States may not like.
    I was fascinated to hear He Qinglian mention WTO on this 
list of things that were monitored very carefully. I think 
people in this country might think, well, the Chinese 
Government was trying to suppress criticisms of entering the 
WTO. It is not the reverse.
    They were worried about people complaining that it was a 
bad deal for China. That fits precisely in this category of 
things that I think we need to allow popular expressions of 
opinion on.
    Mr. Wolf. Thank you.
    Next is Matt Tuchow, who works for Congressman Sander 
Levin.
    Mr. Tuchow. My question goes back to the mission of this 
Commission, which is, in part, to make recommendations on an 
annual basis to Congress and to the Executive Branch. I am 
curious what you panelists feel the Commission should recommend 
in the Fall to Congress and to the Executive Branch.
    Mr. Mann has mentioned that sunshine is important, bringing 
the truth to light. But how would you do that? What sort of 
specific recommendations would you and would others have us 
make to the Congress and to the Executive Branch?
    Mr. Mann. Well, I feel limited because I am not quite sure 
what the range of options are for this Commission and what 
kinds of recommendations you have under consideration.
    Beyond simply telling the truth, I think the thrust of my 
testimony is that, to the extent that you focus on the rule of 
law, that it be far broader than simply commercial law. But 
beyond that, since I do not know the general range----
    Mr. Tuchow. It is pretty flexible.
    Ms. He. In the past, the United States has used the issue 
of human rights to try to persuade the Chinese Government to 
change its activities. At that time, the Chinese Government 
represented itself as respecting the views of the Government of 
the United States.
    Not everyone in the Chinese Government wants to improve the 
human rights record in China. China was influenced by the 
United States point of view because she had not yet been 
admitted to the WTO and had not received the most-favored-
nation [MFN] status either.
    Since the entry into the World Trade Organization and the 
restriction from most-favored-nation has now been lifted, the 
Chinese Government is less concerned about how it is perceived 
in other countries.
    I think the United States Government should consider some 
new sort of policy in this regard because this would be 
something that would be influential among the Chinese 
intellectual community. Everyone recognizes that with some 
input from the United States, the human rights record in China 
could be improved.
    Why has this record become worse in the last couple of 
years? For the reasons I just stated, that there is no longer 
such a strong pressure on the Chinese Government. A lot of that 
has to do with the fact that this most-favored-nation is no 
longer an issue in China.
    I do not really know what sort of instruments could be used 
to bring the human rights question into more prominence with 
the Chinese Government at this point. China has often used a 
kind of policy of warnings and bullying with other countries, 
for example, threatening to limit trade and using other 
stratagems like this.
    But some of these policies implemented by the Chinese 
Government have been quite successful, really. Small countries, 
Finland, for example, has already submitted to some of these 
irrational demands on the part of the Chinese Government.
    Ms. Menon. We would just hope that the United States 
Congress and every other American political leader should be 
raising these issues in meetings with Chinese Government 
officials, should be speaking out whenever possible, really, 
and just to raise these issues consistently, that press freedom 
is a fundamental right, and other human rights in China, and 
monitoring of those human rights depends on ensuring press 
freedom.
    So, when there are serious press freedom violations, 
especially when a journalist is jailed for his or her work, we 
would just hope that Congressional representatives, as well as 
members of the Executive Branch, the President, members of the 
Administration would raise these cases as priority cases, that 
these are cases that America and Americans care about. I think 
that is the most important thing.
    Mr. Wolf. Thank you.
    Next is Karin Finkler, who works for Congressman Joe Pitts.
    Ms. Finkler. Thank you. I think most of my questions have 
already been asked.
    But I would ask, as a followup to the questions that John 
and Matt asked, for further specific examples of what Congress 
can do. There is a lot of funding for democracy-building and 
rule of law programs.
    If there is funding that can be given to groups that help 
journalists, or train journalists, or things like that, it 
would be helpful to know about that so when we are talking with 
the members they can recommend ideas to different committees 
and the Administration.
    Mr. Mann. That is a very fair question. There are a number 
of media groups, some working in China. I did not come with a 
list today. I think that either I or someone else could come up 
with a list. I do not know who is doing the most productive 
work.
    But the focus of that work certainly needs to be with the 
Chinese press, with Chinese journalists. The more who can get 
to this country, as many have in one way or another, or get 
out, and exposure to the world of the press outside of China, 
the better.
    Ms. Finkler. I think that the Chinese Government, some 
parts of it, have been open to outside assistance on rule of 
law programs. I do not know if there are any specific instances 
that could be pointed to where the Chinese Government is open 
to outside interaction on media issues.
    Ms. Menon. I think that there are Chinese journalists 
coming for training in different kinds of training programs. 
The Chinese Government has been a bit more receptive to that 
and that does have an effect.
    I think the increasing professionalism of journalists in 
China who see themselves as journalists who have a 
responsibility to get many different perspectives and to tell a 
story in an interesting and challenging way, I think that does 
have its effect.
    But you can be the best journalist in the world, and if you 
are still working under a repressive regime, there is not much 
you can do. I mean, a lot of Chinese journalists who are 
brought here through the United States International Visitors 
Program, a lot of them come to the Committee to Protect 
Journalists.
    It is always very informative and illuminating to hear what 
they have to say. The point is, most Chinese journalists know 
much more and think much more critically than they are ever 
allowed to express publicly. So, again, until there is 
fundamental reform, those kinds of programs are great and they 
do have, certainly, a positive effect. But the limits are 
there.
    Ms. Finkler. Yes. Thank you.
    Ms. He. In the last 20 years, there have been a great many 
cooperative programs between China and the United States, 
particularly cooperative events with the Chinese Government.
    But please pay attention to the factor that is reality. 
These programs have resulted primarily in simply supplying a 
means by which Chinese Government officials can pay for their 
journeys to the United States. There has been very little 
resulting help to the development of democracy in China.
    In this cooperation, there are a lot of Americans who have 
recognized a particular problem. Without the support of the 
Chinese Government, no program could really be successful.
    In cases where the government has very strict control over 
these projects, if one is continuing to do research, for 
example, from the point of view of the intellectuals in China, 
there is too great a disparity between reality and the kind of 
things that are researched in these United States-Chinese 
Government-sponsored programs.
    Mr. Wolf. Thank you.
    Just to put the last few questions in context, one purpose 
of these roundtables is to hear from the experts on the panels. 
But another purpose is to create a broader dialog and to tell 
those people who are interested in these issues that we would 
like as much input as we can get.
    So for the three of you, we would like to hear any further 
thoughts you have, for example, on ideas on specific things 
that the Commission might be able to recommend, or ideas on 
that from anyone else.
    Mr. Mann. Can I ask on that, do you plan to have specific 
recommendations for specific U.S. Government policy actions?
    Mr. Wolf. The mandate of the Commission includes, in our 
annual report, recommendations to the Congress and to the 
Executive Branch, and recommendations for actions to take. So, 
yes.
    We are going to start another round and continue this 
discussion. I would like some insight into what happened at 
Southern Weekend. A year ago, there were very good things to 
say about the freedom of reporting in Southern Weekend. Now we 
are in a totally different situation.
    Why was Southern Weekend allowed to do the kind of 
reporting it was doing a year ago, and what happened, what 
threshold was passed that we are now in a period of significant 
constraint on what they can do?
    Again, I am trying to understand this as an indicator of 
how the government acts and intervenes and what circumstances 
make the government alter its policy.
    Ms. Menon. I think He Qinglian knows a lot about this case, 
but I can also talk about it after she is finished.
    Ms. He. Yes. I am quite familiar with the Southern Weekend 
matter. The government has been allowing us to proceed and has 
allowed the situation to go on for a number of years.
    The former chief editor told me their real purpose was to 
bring to people's attention mistakes that the government may 
have committed. In 1999, their chief editor, Jiang Xiping, was 
dismissed and a number of editors resigned. Qian Gang became 
the chief editor.
    The government was very dissatisfied with what this 
newspaper had been reporting. Last year, as an excuse, they 
seized upon two particular articles which were critical. There 
was a gang of people who had been committing robberies and 
rapes. The head of that group's particular role in this crime 
was reported.
    But they said that the reason why this group was so 
vicious, is because they came from a rural, poverty setting.
    And in each case, the families had seven or eight children, 
so these families had no way to provide for such a large number 
of children. When they went into the cities, they could not 
find work so they became robbers and rapists.
    So this report said there are a lot of people like this 
Zhang Jun who come from such deep rural poverty. The society 
that produced someone like that still has not been changed. 
Until it is, similar groups will continue to arise.
    The government considered this to be a serious crime, this 
kind of reporting and said it was a destruction of the efforts 
of the Hunan Province over the past 20 years to raise the 
standard of living of its people. This was very special, this 
particular case. This meant that a number of people had to be 
dismissed. A number of reporters were restricted and placed on 
probation to see how their attitude might change.
    So, Southern Weekend was not officially ceasing its 
publication, but it was no longer the kind of paper it used to 
be.
    Mr. Wolf. Did you want to add something, Jim?
    Mr. Mann. Yes. You asked in your question, what was the 
line that Southern Weekend crossed. I just wanted to point out 
something that you probably already realized. The real problem 
is, no one knows what the lines are. The lines change from time 
to time, so you can never quite predict what they are going to 
be.
    Mr. Wolf. Thanks. John Foarde.
    Mr. Foarde. Ms. Menon, did you want to step up to that 
question as well and say something?
    Ms. Menon. Yes.
    Mr. Foarde. Please go ahead.
    Ms. Menon. I think that that is the important point, that a 
lot of journalists have said that it is even more unclear now 
what they can or cannot do, and why. I think it is difficult 
for international observers to understand. Well, China does not 
have press freedom, so how can this enterprising, aggressive, 
and independent-seeming newspaper even exist?
    One way is that such newspapers seem to exist in pockets, 
especially in a place like Guangdong, which is generally a bit 
more of a freewheeling atmosphere, and I think there are 
different sensibilities among the provincial Communist Party 
leaders about what the press should and should not be doing. 
There is that factor.
    There are also some provincial papers that are able to 
publish very aggressive stories about wrongdoing in other 
provinces, but not in their own backyards, so they do not make 
their own sponsors look bad. So, there is sometimes the 
appearance of great freedom in pushing the boundaries, when 
really I guess journalists are just exploiting these loopholes.
    But there is always this danger lurking that you will 
expose the wrong guy, you will write something critical about a 
leader who does have very powerful backing. If you misread the 
signals, then you are certainly in danger of losing your job, 
or at the worst, you could be jailed.
    Ms. He. The Southern Weekend frequently reported all sorts 
of corruption and crime in various provinces of the country. 
The people in these other provinces in the government were very 
unhappy about that, including when there were meetings of the 
different Governors and Party secretaries of the different 
provinces.
    For example, in the Guangdong province, both the Governor 
and the Party secretary raised this issue: ``Why are you people 
at Southern Weekend so much like Americans? You want to get 
involved in everything.''
    Mr. Wolf. Thanks. Chris Billing.
    Mr. Billing. If you read Chinese newspapers they tend to be 
very optimistic in the sense that they are always talking 
about, industrial production is up, agricultural output is 
increasing, nationalities are unified. Meanwhile, Chinese 
citizens are dealing with rising crime, corruption, and labor 
unrest and those sorts of issues.
    My question is, is the propaganda still effective? Do 
ordinary citizens still really believe what the government is 
saying? This question is for anyone who has any comments.
    Ms. He. I think this propaganda is useful to the state. I 
have met a number of people who are Chinese who came to the 
United States and got doctorate degrees here, including some 
Americans who were students of China. They said, ``China is 
great.'' I said, ``Where did you get your information from?'' 
They said, ``The People's Daily says that all the time.''
    I said, ``Please pay attention to this. If you take the New 
York Times, for example, and compare it to the People's Daily, 
you would reach the conclusion, America is terrible because the 
New York Times daily criticizes the United States. China must 
be a heaven in comparison, because that is what it says in the 
People's Daily. Please make some determinations as to which you 
think is more reliable.'' They were left speechless.
    Mr. Mann. I would add to that. It is sometimes very 
counterproductive. China is a rumor culture. Bad news travels 
by rumor, as of course there is very little fact-checking on 
the rumors, which sometimes are worse than the reality and 
sometimes are distorted.
    I sometimes tell Chinese friends that in this country, if 
things are going well, if everything is going great at the 
Department of Housing and Urban Development--a very random 
example--you do not read about it in the newspaper. And if you 
do not read about things in the newspaper, people assume that 
maybe things are going all right.
    In China, of course, people read between the lines. Since 
all the news is good, people read between the lines and assume 
that there are bad things going on that they do not know about.
    Ms. He. One more thing. I have a nanny who works in my 
home. She talks with me quite often about the United States. 
She hates America. She comes from a farm village in Hunan, has 
no real understanding of the United States.
    I asked her, ``Where do you get your information about the 
United States?'' She said, ``That is because everything I read 
says that, both from the newspaper and the television. When I 
was in primary school and high school, that is what the teacher 
always said.'' So do not look down upon the capability of this 
kind of propaganda to achieve its purpose.
    This is presenting a very distorted view of history and 
unreality to cheat or to deceive the general population.
    Mr. Wolf. Amy Gadsden.
    Ms. Gadsden. Two quick questions. The first, for Ms. Menon 
and Mr. Mann, and the second one for Ms. He.
    The first question is, Ms. Menon, you mentioned in your 
testimony, and I do not know whether you got to say it or not, 
that recently the New York Times reported that a woman was 
arrested and that there was a directive that had gone out in a 
local area where a New York Times journalist had been recently 
doing some research, that anyone that talked to foreign 
journalists could be arrested or detained.
    In your experience, Mr. Mann, and in your work, Ms. Menon, 
is that something you are seeing an increase in? I mean, it 
seems to me that that was something that was very prevalent in 
the 1980s, but then in the 1990s as China opened up there was 
an ability where they were able to talk to Western journalists. 
But is that still something we should be very mindful of?
    And the second question for Ms. He has to do with ownership 
structures of newspapers. In this case, I am not talking about 
ownership of Renmin Ribao [the People's Daily] or any of the 
national papers, but at the local level, at the provincial 
level, at the county level.
    Is there changing in the nature of ownership of media 
outlets, whether it is publishing companies or newspapers, and 
does that affect where people are willing to take risks in 
order to make a profit?
    Mr. Mann. Let me take a crack at the first question. I 
think when you talk about China's treatment of foreign 
correspondents, that things were getting more relaxed in the 
1980s but were tremendously tightened up in the early 1990s. 
The security monitoring was the heaviest then and has become 
somewhat looser.
    My colleagues in Beijing now say that, generally speaking--
and again, things change from season to season--that they are 
able to travel and they certainly are able to talk to people in 
China, I think, more than in the early 1980s, anyway.
    But that article posits the problem, which is that after 
they talk to people, some of the people that they talk to, if 
they say the wrong things, are subject to retaliation. Again, I 
would not want to compare that. I do not think that it is worse 
than in 1990 or 1991, but that is still a serious problem.
    Ms. Menon. I do think that this harassment of sources is 
something we are increasingly worried about, certainly. I am 
not sure how many cases of that we have documented. Most of 
these cases do not get publicized.
    Just finding out about these cases is really difficult, but 
I definitely have heard more concern among some foreign 
journalists that there would be retaliation against some of 
their sources.
    I think for a while it seemed like people were very 
outspoken, not only in the cabs and in informal conversations, 
but even more open to talking to foreign journalists about 
pretty controversial subjects and expressing publicly these 
kinds of frustrations.
    There was the sense that, ``Oh, if you say this to the New 
York Times, you would share the New York Times correspondent's 
immunity from retaliation'' because there has not been a lot of 
harassment of at least the mainstream foreign correspondents.
    There was a recent case of a Chinese-born Canadian citizen 
who was expelled from China. He was reporting for PBS. But, 
generally speaking, foreign correspondents in China have not 
faced that kind of harassment. They may be tailed. They are 
very often detained, especially if they report without a 
permit.
    Reporting without a permit is a really frequent reason for 
harassing foreign journalists because, of course, it is very 
difficult to get a permit to report where the stories are. But, 
yes. I guess, to summarize, we are increasingly worried about 
harassment of sources.
    Mr. Mann. One last thing I would point out. One of the most 
serious incidents of the year were the strikes up in northeast 
China, and it was very difficult. We really did not get a good 
picture because it was very difficult for the foreign press 
corps to get access there.
    Ms. He. You were asking about the ownership of the media. 
All of the newspapers in the country are owned entirely by the 
State, not by any private group. The chief editors of these 
newspapers are government officials.
    To go back to this Southern Weekend, it is not directly run 
by the government but it is prepared together with a newspaper 
which is run by the city government of Guangzhou. The Southern 
Daily newspaper is the owner or the leader of the Southern 
Weekend supplement.
    All the editors and assistant editors, and so forth are all 
part of the organization of the mother paper, which is run by 
the city government.
    There is a regulation on the part of the government that 
deals with the media: No private group is allowed to run a 
newspaper.
    Mr. Wolf. Thank you. Holly Vineyard.
    Ms. Vineyard. Ms. He, thank you for your comment about your 
nanny. That brings to mind a comment that was recently relayed 
to me by a United States businessmen based in Beijing. He said 
that he was concerned that the United States is losing the 
hearts and minds of the average Chinese people.
    I was wondering if the other panelists might comment on 
that observation, how the media restrictions affect the 
attitude that the average Chinese person adopts toward the 
United States, and despite the fact that all the Chinese 
newspapers are owned by the government, if you have noticed if 
there are any regions that enjoy greater press freedoms than 
others.
    Ms. Menon. As far as regions go, certainly Guangdong is 
among the most liberal of the regions in China. It is never an 
independent press, but it at least has some journalists who are 
more critical and more willing to take some risks.
    I would have to defer to He Qinglian or Jim Mann on the 
first part of your question, because I do not read Chinese. I 
do not read the Chinese media. We have a researcher who does 
all of that. Also, I have never been to China and talked to 
people about their attitudes about the United States or about 
their government.
    I was listening to everything that Jim Mann said, and He 
Qinglian also, about the dangers of this kind of propaganda. I 
think He Qinglian especially emphasized that it is very, very 
effective. It is surprisingly effective, in some ways.
    I think another kind of, I do not know if it is a flip side 
to that, but another side to that is, I think if there is a 
disconnect between what people know and what they see reported, 
locally, at least, there is a general sense of disbelief in 
anything that authorities say or do.
    I think there does seem to be very deep and widespread 
cynicism among the Chinese public these days. I think that, in 
that sense, propaganda is not only not effective, but it is 
counterproductive in that it feeds this sense that everybody is 
lying, nobody is telling the truth.
    If you are constantly reading between the lines to see what 
is not there, and if rumors are allowed to grow, that is very 
unhealthy for any society.
    Mr. Mann. The question you asked about losing the hearts 
and the minds of the Chinese people is very complicated. In my 
experience in China, people in China tend to be very shrewd, 
and sometimes very cynical and very critical of anybody and 
everything.
    So to give you a couple of stories, I can remember once, 
again, in the early and mid-1980s, sometimes your ability to 
travel in China or to report in China had to go in organized 
tours.
    I remember once visiting a factory in China where it was an 
organized tour of foreign correspondents, and then separately 
of Chinese correspondents interviewing the same factory 
officials.
    By the time the foreign correspondents were brought in and 
these people had been questioned by the Chinese press, they 
were nearly shattered because the Chinese press privately was 
much more critical than we could ever know to be.
    Just as a second story. I was writing a book about American 
business in China, I was reporting on a joint venture. It took 
me about 18 months to get permission to just talk to ordinary 
workers on the factory line.
    When I did, I began to ask them, first, about the American 
company. Well, the American company was exploiting them, it was 
hiring them for wages that were less than they were in Detroit. 
I thought I got the picture. Then they switched to the Chinese 
Government, which was also exploiting. They felt exploited by 
everybody.
    I am not sure that your business friend in Beijing has the 
whole story on losing the hearts and minds of the Chinese 
people. People tend to think for themselves. I guess my goal in 
seeking an end to restrictions on freedom of expression is so 
they can bring that criticism out into the public where it has 
some reality testing.
    Ms. He. Please note that it is not only the uneducated 
people in China who dislike the United States. Many of the 
people who express anti-American feelings are college-educated 
people. This includes Chinese students in America who have 
received higher education.
    If there is a little bit of time left, I would like to tell 
you one short story. There was an official from Shenzhen who 
came to the United States. I met him one day and he said, ``I 
just came back from the United States. America is wonderful, it 
is just, but the system does not work very well. In China, 
nothing works very well, except the system is good.'' He was 
not a humorous fellow. I was very surprised. I asked him, 
``Please explain.'' He pointed out the matter of President 
Bush's daughter being pulled aside for illegal drinking.
    ``This is all over the U.S. media. Everyone is critical. If 
a news system like that were to exist in China, that would not 
be reported at all.'' I understood then. I told him, ``I 
understand, because our system cannot protect the government 
and its officials.''
    Nothing is allowed to be broadcast, so no matter what bad 
thing an official does, it does not appear in the press. Now, 
this was his understanding of the differences between the 
systems in the United States and in China.
    Thank you.
    Mr. Wolf. Thank you. Matt.
    Mr. Tuchow. I have two quick questions. The first one, is 
whether the panelists believe that this Commission's or our 
government's speaking out on behalf of specific detained, 
arrested, or imprisoned individuals will be helpful or harmful 
to those individuals.
    There is in the testimony, I think, an example of an 
arrested journalist about whom, there was so much press that 
his wife was arrested or detained, and then she refused to 
speak to foreigners any more. So, that is my first question.
    Then the second one relates to our earlier discussion here 
about the effectiveness of propaganda in China. I would like to 
ask you what you feel about the role or the benefit of Radio 
Free Asia and other groups that the government could support to 
provide other media information to people in China.
    Ms. Menon. I raised the case of Jiang Weiping, the 
imprisoned journalist whose wife was later arrested. The point 
I was trying to make, is that press attention, international 
media attention alone will not do the trick. There has to be 
political back-up and follow-through as well.
    I do think that in every case, if you look at the 
scattering of political prisoners who have been released over 
the past 5 or 10 years, all of those political prisoners have 
been the ones with the highest profile. They have been the ones 
whose cases have been raised at the highest levels by 
government officials. International human rights groups and 
journalists have written about them.
    It is the people whose cases are championed. Those are the 
people who are ultimately released and those are piecemeal 
victories. That is not reform, but at least, individual by 
individual, it is important, I think, to raise a voice on 
behalf of those people and to try to secure their release. I do 
think it would be extremely helpful for political leaders to 
raise these cases at every opportunity.
    Ms. He. In relation to this question, I think citing 
specific names over and over again is a kind of double-edged 
sword. On the one hand, it places more attention on this 
individual and on the government's charges against him, and 
makes the government uneasy because the Chinese Government has 
always felt it is the government's role here to protect 
society.
    But, on the other hand, it might have some genuine effect 
in protecting the individual concerned. For example, you cannot 
treat a well-known journalist whose name has been mentioned 
specifically by the government the same way you could an 
unknown factory worker.
    I think the advantages outweigh the disadvantages of the 
U.S. Government raising names of specific persons. At least, it 
serves to protect them. They would not die unrecognized in a 
jail somewhere. But you have to beware. In order to ameliorate 
these people's conditions, there has to be some kind of quid 
pro quo for the Chinese.
    Mr. Mann. Two things. First, there has been a serious 
debate, and there is a serious debate with arguments on both 
sides about raising cases of individuals. But it is not the 
question you asked, actually.
    I mean, the debate is, if you focus on specific 
individuals, are you allowing the Chinese Government to turn 
those individuals effectively into hostages and bargaining them 
away for other things, and are you diverting attention away 
from more systemic change?
    The question you asked, is whether it helps those 
individuals. I think the record of the last 20, 25 years is 
that it definitely does. It helps those individuals. It helps 
to protect those individuals. So, I would say without 
qualification, yes, in answer to your question.
    The question is whether, in the process of doing that, are 
you diverting away from pushing for a systemic change or 
getting into some kind of hostage negotiation.
    And on the question of Radio Free Asia, just very, very 
briefly, I think it has been extremely valuable in bringing 
information to China. It is jammed, but it is concentrating on 
the countries that it can reach. It is obviously not just for 
China. It is concentrating on bringing information that would 
otherwise not be out there and it has been extremely valuable.
    Mr. Wolf. Thanks.
    If you do not mind, let us go to another series of 
questions.
    In the years before 1989, there was a measurable 
liberalization. Is there a scenario over the next half a dozen 
years where you can envision political change that would lead 
to a similar liberalization in the freedom of expression and 
press freedom?
    Mr. Mann. I do not want to venture into sort of soothsaying 
about China. I do not know what is going to happen. I do think 
that those changes before 1989 were done with a level of 
innocence, and in some cases romanticization of the West, that 
will not occur again.
    Furthermore, the political results of 1989--and people in 
this country sometimes forget this--were to lop off a whole 
wing of the Party, a whole wing of the leadership which then 
either ended up outside of the country, or in some cases in 
jail. I do not see that recurring. I can imagine, the 
leadership now is once again talking about--talking about--
political reform.
    But the problem is, first of all, talking never quite 
reckons into account all the vested interests against it. You 
think you want political reform as a Chinese leader until you 
run into tremendous opposition, or you define political reform 
in such a way that it amounts to nothing.
    So, occasionally--and this has been true not just before 
1989 but also afterward--you do hear people begin to talk about 
the importance of allowing the press some kind of restraint, 
that it has some oversight function. Then, of course, it does 
not quite happen because you cannot separate out the role of 
the press from the larger political questions in China.
    Mr. Wolf. Thanks. John.
    Mr. Foarde. I have a question for Ms. He, who has excused 
herself briefly.
    Mr. Wolf. All right. Amy.
    Ms. Gadsden. While we are waiting, just a quick question 
for you, Mr. Mann. The interaction between Chinese journalists 
and the international journalists based in China, is that 
growing? Is it having an effect in terms of changing the way 
Chinese journalists understand their role within the system, 
even given the restraints that there are within China?
    I think you mentioned Taiwan media organizations that are 
interested in gaining a foothold in China, or Hong Kong-based 
media organizations that are interested in getting a foothold 
in China. Could there possibly be a ``tail wagging the dog'' 
effect with that in terms of reforming the media?
    Mr. Mann. I think it would be presumptuous of me to talk in 
detail about interactions between foreign correspondents and 
Chinese correspondents.
    Now, I will say, over a period of 15 years, there is some 
very slow impact from watching Hong Kong and Taiwan media go 
into China. When I arrived, there were Hong Kong reporters 
there, and then Taiwan reporters began to arrive.
    To watch Chinese officials be asked questions in Chinese by 
other than a controlled source and be forced to articulate 
answers to them, even though the answers may not have been what 
those reporters wanted, that was, itself, the beginning of a 
process and had some value, within limits.
    Mr. Billing. He Qinglian, you mentioned that one charge the 
government uses against journalists it does not like is to 
accuse them of taking bribes. It seemed to me that, in fact, 
bribe taking is quite common among Chinese journalists, in the 
sense that companies can buy news and bribes are quite readily 
available. I wonder if you can give me a sense if there is a 
lot of corruption within the media ranks within China.
    Ms. He. Yes. The situation of corruption within the media 
is very strong. This is a way in which they can increase their 
income. For example, if you write an article that is very 
complimentary toward an individual, that is going to result in 
a good fee.
    The price will vary, whether the article appears on the 
first page or the fifth page. This is open. Everyone knows it. 
Also, there are individual activities on the part of 
journalists. A reporter will praise a particular company or 
particular individual. He is often going to get some 
compensation for that.
    We have a number of reporters on our paper whose income is 
quite good. That is why the Chinese Government feels every 
Chinese reporter must be on the take. The People's Daily, for 
example, a lot of the people who work for it have their own 
private automobiles. This would be impossible under their own 
salary level. Their parking lot is called ``the place where the 
expensive cars are parked.''
    Mr. Wolf. Thanks. Holly.
    Ms. Vineyard. Ms. Menon, I noted in your testimony that 
self-censorship is an increasing problem in Hong Kong. I was 
wondering if you could talk more about that for a little bit. 
Also, if you could let us know if there has been any formal 
censorship of United States media such as we have seen in other 
Asian countries.
    Ms. Menon. About Hong Kong, I think self-censorship got a 
lot of attention recently when Jasper Becker, from the South 
China Morning Post, was pretty unceremoniously dismissed from 
his post.
    He said it was very much a case of self-censorship. The 
South China Morning Post, which is one of the most influential 
English-language papers in the region, has dramatically changed 
over the past few years. It is owned by a Malaysian Chinese 
tycoon who has very substantial business interests in Mainland 
China.
    So, it is not a case of the government in Beijing ordering 
the Hong Kong officials to discipline the paper in some way or 
fire such-and-such person, it is really the publisher acting in 
some ways because of his political bent to change the nature of 
the newspaper's coverage.
    So, the problem with those kinds of cases is it is very 
difficult for any monitoring group or anybody who is interested 
in what is happening politically to understand, well, where 
does this pressure come from? It is very difficult to document, 
for example, why a story does not appear.
    Is it because of the publisher's business interests? Is it 
because somebody's political bent is contrary to what was being 
reported? Are there any overt or subtle pressures being 
applied? It is very difficult to measure. So, that is why it is 
particularly worrisome.
    I mean, we can document press freedom violations when the 
government clearly applies pressure, but if publishers in Hong 
Kong or if journalists in Hong Kong simply are not writing 
about things because they do not feel the freedom to do so, 
that is much harder to understand the mechanics of that, and it 
is always controversial.
    In the Jasper Becker case, as an example, he was the 
Beijing Bureau Chief for the South China Morning Post. I guess 
the management ended up saying he was not doing a good job. How 
can you prove exactly what really happened? It ends up being, 
``he said, she said.''
    People were alarmed by the case because they felt like the 
South China Morning Post was a bellwether for whether there is 
press freedom in Hong Kong. And, certainly, that case did have 
those kinds of implications, but it is just so complicated that 
it is very difficult for anybody to take a clear stand and say, 
this is what is happening here, because everything is happening 
under the table.
    I am sorry. What was the second part of your question?
    Ms. Vineyard. Have you seen any overt censorship of United 
States media in Hong Kong? Other Asian countries, for instance, 
will block certain issues of the Wall Street Journal from time 
to time. I am wondering if you have seen anything like that 
develop in Hong Kong.
    Ms. Menon. I do not think I have noticed any. I mean, I do 
not think that we have documented any cases like that in Hong 
Kong, no.
    Ms. Vineyard. Anyone else?
    Mr. Mann. There are cases from time to time in China where 
foreign publications or an issue of foreign publications gets 
blocked. The Economist had a special section on China 3 or 4 
weeks ago, and I noticed that, sure enough, that was restricted 
in China. In Hong Kong, I do not know that that has happened at 
all. I do not think it has.
    Mr. Wolf. All right. Thanks. Matt.
    Mr. Tuchow. I have two questions, again. The first one, is 
just for Mr. Mann. It is the question you raised, the bigger 
question, the one you said I should have asked, which is about 
hostage negotiation. Does taking up the case of an individual 
deflect or divert from more systemic changes in the system? I 
am curious what your answer to that would be.
    Then I have a second question, if we have time. That has to 
do with another theme that we have been talking about today, 
which is, what space for progress on freedom of speech, or 
press, or expression in China exists? Is there any way that 
this government will see it in its own interests to allow 
greater freedoms in this respect?
    I say that in the context of remembering what I think was a 
pretty highly publicized case of a fireworks factory where some 
kids were involved. I believe that there were some local 
journalists who were involved in reporting on this.
    It was initially denied, and then the central government 
agreed that this had occurred. It was as if the journalists had 
won the day on this particular issue. I do not know if that 
portends a trend or a space for freedom of the press. So, it is 
really those two questions.
    Mr. Mann. Well, first, on the whole raising the cases of 
individuals, I think that the U.S. Government and the 
Commission should raise, and can raise, both and not get 
restricted to one at the exclusion of the other and that the 
record shows that when you raise the cases of individuals, that 
helps those individuals. You just should not leave that out, 
because obviously you and I feel that the systemic change is of 
crucial importance.
    The problem comes less from a situation like your 
Commission faces than for high levels of the U.S. Government 
when you get into some kind of pre-summit, pre-meeting, pre-
something or other situation. That is when this sort of 
bargaining takes place.
    I think just continuing to raise a case and suggesting that 
the United States would really like to see action on a case 
often produces some results. I do not know what kind of 
bargains. To judge a particular bargain, you would have to see 
what it is the United States is being asked to give up in order 
to get a particular individual freed.
    What was your second question?
    Mr. Tuchow. What space exists for freedoms, and in 
particular, the example of the fireworks factory?
    Mr. Mann. I think there is some space. The example of the 
fireworks factory raises a very complicated issue about 
investigative reporting. That is, people in this country or 
people who visit China come out and say, gee, I saw this great 
investigative report.
    There are times in which investigative reporting, within 
the limits that it is done, can be good investigative 
reporting, and yet not only is not against the interests of the 
government, but the central government likes it. The central 
government, just apart from issues with the United States, 
apart from issues internationally.
    The central government always has some problems enforcing 
or carrying out what it wants with localities, with local 
areas. In some cases where there are abuses at the local level, 
the central government is quite happy to have investigative 
reporting to expose those abuses. So, that provides some degree 
of space for local investigative reporting.
    The problem comes, what happens when the investigative 
reporting starts reaching the national level? We have seen some 
scandals. There was a huge smuggling scandal, for example, in 
Fujian Province which started out as a local scandal, and the 
central government was quite happy to foster the coverage of 
it. It then began reaching into Beijing, and things got much 
trickier and people got less interested in the investigations.
    Mr. Wolf. We have a few minutes left, so if you have any 
short, final comments or advice, please go ahead. If anything 
comes to you later, feel free to send us a note and we will put 
it in the record for the hearing.
    Jim.
    Mr. Mann. I do not think so. Thank you.
    Mr. Wolf. Ms. He, any final comment?
    Ms. He. I think if the Chinese Communist Party does not 
change its basic principles, it will be very difficult to 
change the present situation. This is an influence that the 
Chinese Communist Party is exerting on the entire world.
    The impression they are trying to convey is that China 
cannot do without the Communist Party, but, in fact, this is 
true. The reality that we have was manufactured by the 
Communist Party. It does not permit any voices of disapproval, 
nor any other competitive forces to be allowed to be created.
    There are two things you can notice about this. From the 
outside, many of these groups that call themselves non-
governmental and claim to be so, but the leaders of these 
groups and also the people who work there are all Party members 
and Party officials.
    For example, organizations within enterprises. Within the 
enterprise, they represent the government. Toward the 
government, they claim to be at the same time representing the 
enterprise. An organization like that could serve no genuine 
social good.
    As I understand it, the understanding of realities within 
China among people overseas are perhaps 5 years behind the 
reality within China. Problems that we faced 5 years ago are 
only now being recognized among foreign people, particularly 
among those who do research on China, because they think of 
their own self-interests and they do not want to say anything 
that would be considered abnormal.
    They do not want to say anything that is particularly 
disadvantageous to the Chinese Government. They may not be 
able, in the future, then to get a visa. They would not get 
financial support for the research within the United States, 
even though they may know that what they are saying is not 
true.
    Mr. Wolf. Well, I guess we are lucky to have you here to 
help break through that. Thank you.
    Ms. Menon, any final comment?
    Ms. Menon. I will just say thank you for actually hosting 
this discussion on press freedom and I look forward to seeing 
the recommendations that come out of this roundtable.
    Mr. Wolf. All right.
    Mr. Mann. I guess the last thing I would leave you with is 
there are occasional times every decade or two when, for 
whatever reason, usually some disagreement within the 
leadership, the restrictions on free speech in China go off for 
a few days, weeks, whatever.
    Once you see that, you see the range of opinion, and people 
say and write what they really think. It is vastly different 
from all of the palliatives of official programs to bring 
journalists here and back. It is that first that we should be 
shooting for. The rest, I am afraid, are really within the 
limits of the existing structure, and it is a structure that 
needs to change.
    Mr. Wolf. Well, on behalf of all of our bosses, thank you 
very much. This afternoon's session will provide significant 
input into the preparation of the Commission's report.
    So, thank you all very much.
    [Whereupon, at 4:51 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                                ------                                


                  Prepared Statement of James Mann\1\

                             june 24, 2002
    To the Commission:
---------------------------------------------------------------------------
    \1\ James Mann is Senior Writer in Residence at the Center for 
Strategic and International Studies in Washington. He is the author of 
two books about China: Beijing Jeep and About Face: A History of 
America's Curious Relationship With China, From Nixon to Clinton.
---------------------------------------------------------------------------
    I come here today to offer some thoughts concerning freedom of 
press and freedom of political expression in China--or more precisely, 
concerning the lack of such freedom. I also come to tell you I worry 
about the ways in which other interests--the foreign-policy interests 
of the United States government, the commercial interests of 
international media corporations, or an unduly narrow focus on the rule 
of law--may unintentionally contribute to the continuing restrictions 
on freedom of press and intellectual expression in China.
    At the outset, I should tell you that what I have to say reflects 
only some general and philosophical observations I have reached in 
thinking about China issues over the past 15 years, first as a 
correspondent in China during the 1980s and then in covering U.S. 
policy toward Asia and writing a history of modern U.S.-China relations 
while living in Washington in the 1990s. I do not claim to be closely 
familiar with the day-to-day situation in China in 2002. Your two other 
witnesses today, He Qinglian and Kavita Menon, can give you a better 
sense of the climate in China right now than I can. I do talk from time 
to time with foreign correspondents now serving in and covering China, 
but what I have to say reflects exclusively my own perspective.
    For me, the most important fact is that despite many changes in 
over the past decades, the situation for press freedom in China today 
is what it has been: That freedom still does not exist. The human right 
of freedom of expression included in the International Covenant on 
Civil and Political Rights and the Universal Declaration of Human 
Rights is not a right that the 1.3 billion people in China are allowed 
to enjoy. Congress assigned to your Commission the task of monitoring 
what it called ``the right to engage in free expression without fear of 
any prior restraints.'' In China, there is no such freedom. The 
restraints remain in place.
    To state the obvious, the Chinese Communist Party maintains its 
monopoly on power, and that includes the power over the principal 
newspapers and television stations. The party's tolerance for what can 
be published varies from season to season; during some periods of so-
called liberalization, more critical views can be aired. But once the 
criticisms get too pointed or too threatening, they are suppressed. 
Among the most sensitive subjects are workers' strikes; rural unrest; 
Falun Gong; allegations of corruption or nepotism by the country's 
leaders; direct criticism of the Chinese Communist Party; Chinese rule 
in Tibet and Xinjiang; and, finally, of course, the events of 1989, 
including the leadership upheavals, the Tiananmen crackdown or what the 
Chinese often call simply ``6-4.''
    The record is replete with examples of disciplinary action against 
those who venture onto these or other sensitive subjects. Just to take 
a few examples from the last 3 years: Chinese authorities forced the 
publication Southern Weekend to stop the presses this March and remove 
a feature about a scandal in Project Hope, a charity that is under the 
control of the Communist Youth League. A magazine called Today's 
Celebrities closed last year after it carried an article that was 
considered unflattering to the memory of Deng Xiaoping. And since you 
have already held a hearing on the Internet, I presume you are aware of 
the case of Huang Qi, who was imprisoned in March, 2000, after his web 
site aired information about the events of 1989.
    The underlying problem is deep-rooted and fundamental. Chinese news 
media are still viewed by the party not as independent sources of 
information or as a check or restraint upon power, but rather as 
instruments of political and social control. In January 2001, Jiang 
Zemin said that the news media in China have a duty ``to educate and 
propagate the spirit of the Party's Central Committee.''
    This view of the press as an arm of the regime is not merely 
abstract. It affects daily life, too. To take one recent and relatively 
benign example: Early this month, when China's soccer team lost to 
Costa Rica at the World Cup, Communist Party officials instructed the 
sports editors of major Chinese newspapers not to criticize the team 
and not to do anything that might arouse popular anger at the team and 
its defeat.
    Now, let me turn immediately to the question I know you will ask: 
But really, aren't things getting better in China these days?
    I anticipate this question simply because for more than two 
decades, the notion that things are getting better in China has been 
repeatedly used to defuse and to minimize concern in the United States 
about restraints on freedom of expression and other forms of political 
repression there. I would argue--in fact, I did in my book--that the 
notion that ``things are getting better'' is propelled by strong 
strategic and commercial interests, interests which may be valid in 
their own sphere but which have little or nothing to do with political 
freedom. In the late l970s and the 1980s, the United States viewed 
China as a tacit ally against the Soviet Union, and in the 1990s the 
United States sought to invest in and trade with China and to use 
commerce as a means of integrating China into the international 
community.
    I think if we're talking specifically about freedom of the press, 
the idea that things are getting better represents a determined effort 
to put the best face on things and is, really, a distortion of the 
truth.
    Things have gotten much better in China in some ways--that is, if 
we are talking about private freedoms. You can wear what you want, you 
can own what you want and in private, you can say what you want. As 
virtually every American visitor to China quickly finds out, the cab 
driver at the airport is free to tell you what he thinks--maybe even 
tell you that he believes Jiang Zemin is an airhead.
    Things have improved in one other way, too. The Chinese authorities 
cannot possibly keep information out of China to the extent that they 
could before. The influx over the Internet and airwaves and the travel 
across China's borders is far too great for China to be able to prevent 
its people from knowing what happens outside. For example, when the 
people of Taiwan were able to hold a free election and force the 
Kuomintang or Nationalist Party to step down from power in March 2000, 
the people of China were able to find out about those events. That's a 
significant change. Still, let's keep it in perspective: It is a change 
that has taken place in spite of, not because of, the efforts of the 
Chinese leadership, which continues to block websites, jam radio 
frequencies and monitor access to the Internet.
    The larger problem is that these changes have no bearing at all on 
freedom of the press or freedom of expression--if by those words, we 
mean what we usually mean, which is public and political expression, 
the freedom to criticize the government openly, to express in print or 
over the airwaves those views which dissent from what the country's 
leaders are saying. This right--again, a right recognized in the 
Universal Declaration of Human Rights and the U.N. Convention on Civil 
and Political Rights--still does not exist in China, and all the talk 
about changes should not deflect us away from that fact.
    Now, let me turn to the concerns I mentioned at the beginning of my 
statement ones that I hope you will keep in mind as you do your work.
    First, about an overemphasis on the rule of law: The rule of law is 
an extremely worthwhile objective in China. However, over the past few 
years I have heard some Americans speak as though it were the only or 
ultimate objective for political reforms in China or as though it were 
the sole means of accomplishing political change. I strongly disagree.
    The subject in your hearing today is freedom of the press and 
freedom of expression. Those political freedoms are at least as 
important as the rule of law--indeed, in my own view, more so. And 
frankly, it is possible to imagine a government that incorporates the 
formalities of the rule of law while doing little or nothing for 
freedom of expression. In fact, even worse, it is possible to envision 
a government that uses the ``rule of law'' to inhibit freedom of 
expression. To take one concrete example, Singapore offers the rule of 
law in such a way that international companies have perfectly decent 
access to its court system for commercial disputes; at the same time, 
the same government uses its laws to punish or, indeed, bankrupt those 
political opponents who would challenge the existing order or the 
ruling party.
    I hope you will take care not to emphasize the rule of law to the 
exclusion of freedom of expression. I hope you will not inadvertently 
encourage China to attempt to follow the political path of Singapore. I 
hope that when you pursue the valuable objective of the rule of law in 
China, you will make clear that it is not enough to provide courts, 
lawyers and judges exclusively for settling or arbitrating commercial 
disputes. If that were to be the sole result, then I think 
unfortunately history may judge that the pursuit of the rule of law in 
China will have turned out to serve the interests of the American 
business and legal communities, but not the goal of advancing the 
rights and freedom of expression of ordinary people in China.
    Second, concerning the U.S. government: I think U.S. officials need 
to be careful about unintentionally encouraging restrictions on freedom 
of expression in China.
    What I'm referring to is the tricky question of U.S. policy toward 
popular expressions of anti-Americanism in China. On a number of 
occasions over the past few years, there have been outbursts of anti-
American sentiment--most notably, of course, after an American missile 
struck the Chinese embassy in Belgrade in 1999 and after a Chinese 
pilot shot down the American EP-3 reconnaissance plane last year.
    I think the U.S. Government is certainly right to complain when 
there is evidence that the Chinese regime is encouraging or even 
organizing such anti-American outbursts, or when the party newspapers 
controlled by the regime fuel these sentiments. There were such 
indications after the Belgrade incident.
    Otherwise, however, I believe the United States should not seek 
suppression of populist Chinese views, including those that are wrong-
headed or crazy. During and after the EP-3 incident, I heard some 
Americans express satisfaction or even gratitude that the Chinese 
leadership under Jiang Zemin had ``reined in'' or stopped some of the 
outbursts of anti-Americanism on Chinese websites or radio talk shows.
    To me, such an attitude is shortsighted. It may help the short-term 
foreign-policy interest of restoring harmony between the U.S. and 
Chinese governments. But it harms the cause of freedom of expression in 
China; it puts the U.S. Government in the position of asking the 
Chinese regime to restrict public opinion.
    Needless to say, China is full of bright, talented people, and if 
they are permitted the freedom to criticize the United States of 
America, some of them may ask why they are not permitted the same 
freedom to criticize their own government and leaders. Furthermore, 
these outbursts of anti-Americanism--so long as they are genuine--serve 
the function of allowing us to see what ordinary Chinese people think. 
That, at least, is a step forward from having to listen to the Chinese 
government claim for itself the right to say that this or that action 
``hurts the feelings of the Chinese people''--an assertion that Chinese 
leaders make without ever holding the sort of open elections, referenda 
or other processes that would demonstrate the feelings of the Chinese 
people, and without ever permitting the question of whether the Chinese 
government's own actions may hurt the feelings of the Chinese people.
    Finally, let me add few words of caution about the tension between 
the goal of freedom of expression in China and the interests of media 
corporations that seek to operate in China.
    This is an old issue, one which has arisen outside of China, too, 
but which has special relevance to China today. While large media 
corporations of course often engage in political expression, they have 
many other interests, including financial ones. As a result, these 
large media corporations may not always further the cause of freedom of 
expression for ordinary individuals--and in fact, can sometimes harm 
that cause.
    In the specific case of China, we can see large media companies 
lining up to enter the China market. These include huge international 
concerns like Rupert Murdoch's News Corporation, AOL-Time Warner and 
Disney. They also include smaller Asian companies; for example, the 
leading newspaper corporations of Taiwan have been quietly hoping and 
laying plans for many years now to start publishing copies of their 
newspapers on the Chinese mainland.
    In business terms, these companies are doing no more or less than 
all the other companies who have been entering the China market or 
planning to do so. They have the same right as any other company to 
expand their market or to try to increase their revenues.
    However, in one respect, these companies are different. They are 
media companies, which not only should enjoy the right to publish or 
broadcast, but also, I believe, have a special obligation, a special 
duty to help foster freedom of expression and to do nothing that harms 
freedom of expression.
    With respect to China, that obligation carries special meaning. It 
means that newspaper and broadcast companies should not agree to 
censorship or to other restrictions on content as a condition for 
entering the China market. It means that computer and other high-
technology companies should not assist the Chinese government in 
blocking the Internet. It means that American entertainment companies 
and movie studios should not let Chinese authorities use the lure of 
theme parks or distribution outlets to determine what movies get made 
or what is in those movies.
    And, finally, it means that executives of media companies need to 
be something other than mere flatterers and mouthpieces for a regime 
that restricts the freedom of expression their companies enjoy 
elsewhere. When they seek to enter China, they need to think about 
their larger missions, not merely their balance sheets--assuming that, 
as I believe, some of them do have some ideals and goals beyond making 
money. Those need to espouse the cause of freedom of expression not 
just for themselves or their media corporations, but for ordinary 
people in China.
    And what can the U.S. Government or your own commission do? I 
realize there are no easy policy prescriptions that will bring about 
freedom of expression in China. But one thing is simple: You can tell 
the truth. You can call attention to the continuing restrictions in 
China. You can emphasize the major factors about the press and 
television in China that have not changed, and not merely the lesser 
things that have changed.
    More than two decades ago, one of my predecessors, a Canadian 
correspondent in China named John Fraser, covered the Democracy Wall 
movement of 1979-80, one of those brief interludes when the 
restrictions on freedom of speech in that country were essentially 
lifted. In a book later on, he wrote something I never forgot: Once you 
have seen what the people of China do and say when the all political 
restrictions are off, your opinion of the country and its people will 
never be the same.
    I hope you will do whatever you can to help ensure that some day, 
the restrictions on freedom of expression will be lifted in China--not 
just for a season and not just at the whim of some Chinese leader, but 
in a fashion that endures.
                                 ______
                                 

                   Prepared Statement of Kavita Menon

                             june 24, 2002
    Thank you for inviting the Committee to Protect Journalists (CPJ) 
to participate in this roundtable discussion about media freedom in 
China. CPJ has been monitoring press freedom conditions in China, and 
around the world, for more than 20 years. The organization was founded 
in 1981 by a group of American journalists who believed that the 
strength and influence of the international media could be used to 
support journalists who are targeted because of their work. CPJ's Board 
of Directors, who are actively involved in our work, includes such 
leading American journalists as Tom Brokaw of NBC News, Clarence Page 
of The Chicago Tribune, and Terry Anderson--who was held hostage for 
nearly seven years in Lebanon while working as the chief Middle East 
correspondent for The Associated Press.
    CPJ works primarily by publicizing attacks against the press and 
petitioning governments to stop press freedom abuses. Without a free 
press, other human rights are likely to remain out of reach. A strong 
press freedom environment is essential to building a vibrant civil 
society that, in turn, can help ensure healthy social, political, and 
economic development.
    The Chinese government does not tolerate press freedom. All media 
are censored, and journalists who manage to express critical views risk 
harassment, dismissal from their jobs, and even imprisonment. This, 
despite the fact that Article 35 of the Chinese constitution enshrines 
the right to freedom of speech and of the press. China has also signed, 
though not ratified, the International Covenant on Civil and Political 
Rights, which guarantees freedom of expression.
    The jailing of journalists is among the most effective tactics 
employed by repressive regimes to control the media. And China does 
this more than any other country in the world. According to CPJ's 
research, China currently holds 35 journalists in prison. A journalist, 
according to CPJ's definition, is anyone who publishes news or opinion.
    These arrests work to silence critical voices, and also send a 
warning signal to all journalists who would dare to express a 
dissenting view or expose an uncomfortable truth.
    Despite statements by senior Communist Party leaders, including 
Premier Zhu Rongji, who have called on the press to expose official 
corruption, Chinese journalists have told CPJ that such reporting is 
extremely dangerous. Journalists are not allowed to criticize senior 
leaders, and reporting about well-connected officials can cost you your 
job--and possibly your freedom. There are no protections for 
journalists who do independent, investigative reporting.
    In November 2001, CPJ honored imprisoned journalist Jiang Weiping 
with an International Press Freedom Award. Jiang Weiping was arrested 
on December 5, 2000, after publishing a number of articles for the Hong 
Kong magazine Frontline (``Qianshao'') that revealed corruption 
scandals in northeastern China. He was later sentenced to 8 years in 
prison on charges including ``endangering national security'' and 
``revealing state secrets''--a charge frequently used to prosecute 
journalists and political dissidents.
    The case of Jiang Weiping has recently become more complicated with 
the arrest in March of his wife, Li Yanling. CPJ fears that Li Yanling 
was detained because her husband's case has received significant press 
attention. Li herself had avoided contact with foreign journalists and 
international organizations, including CPJ, precisely because she did 
not want to risk further harm to her family. The couple has a young 
daughter, who is currently staying with relatives.
    Li Yanling's arrest and Jiang Weiping's prolonged detention 
underscore the fact that international media attention alone cannot 
prod the Chinese government toward reform. Such cases must also be 
championed by political actors, including the United States.
    The U.S. has clear commercial and political interests in promoting 
greater transparency and the rule of law in China. The local media have 
increasingly played a critical role in exposing corruption and other 
abuses of power, and deserve the support of the international community 
for doing so. If members of the U.S. Congress speak out when Chinese 
journalists are jailed, it may help to secure their release.
    It is important to note that the arrests of journalists not only 
violate international law, but also are typically carried out in 
violation of Chinese laws. Trials are often secret, and family members, 
colleagues, and the press are not allowed to attend. Detainees are 
often held for time periods exceeding legal limits specified in China's 
Criminal Procedure Law. Under this law, suspects may only be detained 
for 2 months while their case is being investigated. Jiang Weiping was 
held for 9 months before facing trial.
    Prison visits by family members, which are permitted under the 
Prison Law, are frequently denied to imprisoned journalists. In the 18 
months since Jiang Weiping has been imprisoned, his wife and daughter 
have not been allowed to visit or speak with him. For the first month 
of his detention, his family was not even informed of his whereabouts. 
Jiang has also been denied medical treatment, also guaranteed under the 
Prison Law, despite the fact that he suffers from a severe stomach 
disorder.
    The Criminal Procedure Law also stipulates that a court must 
pronounce judgment within 6 weeks after accepting a case. However, five 
journalists who were tried in 2001 are still awaiting sentencing. Huang 
Qi, an Internet publisher charged with subversion, was tried in August 
2001, but 10 months later no verdict has been announced. Yang Zili, 
Zhang Honghai, Xu Wei and Jin Haike, were charged with subversion after 
they founded the New Youth Study Group (Xin Qingnian Xuehui), which 
distributed online essays about political and social reform. Though the 
four were tried in September 2001, they are still awaiting the verdict.
    Of the eight new arrests CPJ documented last year, all were related 
to online publishing. That means that the new possibilities for free 
expression that accompanied the advent of the Internet come with the 
old risks of persecution.
    There are an estimated 57 million people now online in China. With 
increasing access to the Internet, it has become much easier to publish 
independent views, and to have such articles circulated widely. 
Internet chat rooms are lively forums for political debate. The sheer 
speed with which news can travel across the country and around the 
world has posed a huge challenge to the Chinese Communist Party, which 
remains determined to control information.
    In some cases, the publication of news online has put pressure on 
traditional media and the government to acknowledge major stories. In 
July 2001, local officials in Nandan, Guangxi Province, tried to cover 
up an accident in which hundreds of miners were trapped in a flooded 
mine. Although hired thugs threatened and harassed journalists who came 
to investigate, reporters managed to post exposes on various online 
news sites. Nandan residents soon thronged to local Internet cafes to 
read online reports of the accident, and journalists from around the 
country came to cover the story. While government officials had 
initially said accounts of the disaster were ``fabricated,'' the 
central government eventually responded to the news reports and sent an 
investigative team, which found that at least 81 miners had been 
killed. The mine owner and 90 others were arrested for the accident, 
and for conspiring with local officials to cover it up.
    This spring, when massive labor protests erupted in several major 
cities in China, activists managed to defy a central news blackout on 
the demonstrations by transmitting news of their activities via the 
Internet.
    However, precisely because the Internet has the potential to break 
the Communist Party's monopoly over domestic news, it is seen as a 
special threat. The Chinese government has introduced a number of 
regulations designed to restrict online content and to expand official 
monitoring of the Web. These regulations include requiring Web site 
operators and Internet service providers to keep detailed records of 
content and user identities, and to turn these records over to 
authorities on demand. U.S. companies have been eagerly eying the vast 
Chinese market, but it is not clear how they could comply with such 
rules violating basic rights to privacy and free expression.
    Some local journalists have noted that while the Internet offers 
new venues for discussion, the technology also allows the government to 
easily spy on its citizens.
    Traditional media in China are in many ways more diverse and active 
today than at any time in the history of the People's Republic. This is 
in part because publications now are more dependent on advertising 
revenue than on government subsidies, and so must be more responsive to 
the public.
    Still, aggressive local reporting is not always welcome, and CPJ 
has noticed a growing incidence of violent attacks against journalists. 
In 2001, CPJ documented its first case of a reporter killed for his 
work in China. The journalist, Feng Zhaoxia, was an investigative 
reporter for a provincial newspaper in Xi'an. He was found in a ditch 
outside the city with his throat cut. CPJ believes that he was killed 
for reporting on local officials' alliances with criminal gangs.
    In January 2002, security officials beat three journalists inside 
the local propaganda bureau offices in Ningyang County, Shandong 
Province, after they reported on anti-corruption protests by local 
villagers. And in March, Beijing-based journalist Yang Wei was 
assaulted by staff members of a property management company that he was 
investigating. His case actually prompted fellow journalists, 
government officials, and members of the public to call for greater 
protections for the local media.
    During the last few years, Chinese journalists have repeatedly and 
openly called for a law to protect their ``right to report.'' But 
although violent incidents are occasionally covered in the local media, 
few legal recourses exist for journalists who are victims of physical 
assault.
    The most common threat to local journalists remains bureaucratic 
interference. All local media are under the control of the Chinese 
Communist Party. In a back-handed compliment to the growing 
independence and professionalism among elements of the country's press, 
the Chinese government has recently undertaken one of the most severe 
media crackdowns in recent years, shuttering publications, firing 
editors and reporters seen as too independent, and issuing new 
directives listing forbidden topics.
    One of the victims of this crackdown is Southern Weekend (Nanfang 
Zhoumo), a popular, hard-hitting newspaper published in southern 
Guangdong Province. One of China's most progressive and adventurous 
newspapers, Southern Weekend has long pushed the boundaries of media 
control in China by publishing in-depth reports on social problems such 
as AIDS, crime, and the trafficking of women.
    Last spring, the paper published an article about a criminal gang 
that killed 28 people in a spree of murder and theft. The author 
included interviews with gang members and their families, as well as a 
broad analysis of problems such as poverty and other forms of 
inequality that may have led to a life of crime. After the article came 
out, the Hunan provincial government notified central authorities that 
Southern Weekend had published a negative portrait of China's socialist 
struggle. Soon, the deputy editor-in-chief, front-page editor, and a 
senior editor were demoted. The news section chief and reporter were 
fired and banned from ever working in journalism again.
    Central government authorities had frequently criticized Southern 
Weekend in the past, and some observers speculated that the crackdown 
was orchestrated by provincial leaders in Guangdong eager to curry 
favor with the leadership in Beijing.
    Southern Weekend continues to test the limits of official tolerance 
but is a considerably more tame publication these days. In March, the 
paper planned to run a front-page story on the misuse of funds by 
Project Hope, a charity sponsored by a subsidiary of the Communist 
Youth League. As the issue was at the printer, the editor succumbed to 
pressure from the local propaganda bureau and decided to replace the 
story with a less controversial one.
    Pressure on local media has been particularly intense in the run-up 
to the 16th Party Congress scheduled for this fall, when delegates will 
choose successors to President Jiang Zemin and Premier Zhu Rongji.
    The Chinese government also continues to closely monitor and 
regulate foreign correspondents in the country. In the past year, CPJ 
has documented several cases of foreign journalists being harassed, 
detained or physically assaulted for their reporting. Sensitive topics 
include coverage of the destruction of homes in preparation for the 
2008 Olympic Games in Beijing, bombings, and protests by members of the 
outlawed Falun Gong spiritual group. In June 2002, Canadian journalist 
Jiang Xueqin was detained for 2 days and then deported after filming 
labor unrest for the U.S.-based Public Broadcasting Service.
    Chinese citizens who speak with foreign correspondents can also 
face repercussions. AIDS patients, for instance, have been repeatedly 
warned not to talk to the foreign press. In June, a farmer in Hunan 
Province who was interviewed by The New York Times about her efforts to 
wage a campaign against rural lawlessness was detained and charged with 
malicious slander of officials. A local official told The New York 
Times that authorities were seeking the arrest of anyone who had spoken 
with foreign journalists.
    It is also difficult for foreign journalists to obtain permission 
to travel to sensitive areas such as Tibet or Xinjiang, where pro-
independence movements are active.
    Since the September 11 attacks in New York and Washington, the 
Chinese government has publicly equated the independence movement in 
Xinjiang with 
terrorism--announcing a crackdown on ``terrorist, separatist, and 
illegal religious activities'' in the region. Xinjiang's independence 
movement is led by ethnic Uighurs, who are mostly Muslim. The policy 
appears to have serious consequences for the local media. In January 
2002, the Xinjiang Party Secretary gave a speech warning that the media 
could be used for ``penetration and sabotage'' by separatist groups. 
CPJ is also researching reports that during recent months authorities 
in Xinjiang have closed numerous Uighur-language publications, publicly 
burned thousands of copies of Uighur-language books, magazines and 
journals that they claim support ``separatist activities,'' and 
restricted Internet access in the region.
    CPJ is also worried about the erosion of press freedom in Hong Kong 
during its fifth year under Chinese rule. Local journalists and press 
freedom groups have said that reporters and editors increasingly 
practice self-censorship and avoid topics that could anger Beijing. CPJ 
is also monitoring proposed security laws against subversion and 
sedition in Hong Kong, which could have severe consequences for free 
expression in the territory.
    In conclusion, China is too large and unwieldy for perfect control 
to be possible. But the Communist Party remains unwilling to cede the 
battle. Hardliners believe that to relinquish control over information 
would be to relinquish control of power altogether.
    Despite its heavy-handed tactics, the Chinese government has 
largely succeeded in evading international censure of its media 
policies. If reform is to come, it will be due largely to the 
persistence and professionalism of journalists such as Jiang Weiping, 
the editors at Southern Weekend, and my co-panelist He Qinglian. They 
need and fully deserve the world's support and attention.

                                   - 

</pre></body></html>
